No. 20-

In the Supreme Court of the United States

THE STATE BAR OF CALIFORNIA, ET AL., Petitioners,
v.
LENORE ALBERT, Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Writ of Certiorari contains 8,348 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dated: October 15, 2020
Respectfully submitted,
VANESSA L. HOLTON
General Counsel
/S/ SUZANNE C. GRANDT
SUZANNE C. GRANDT
Assistant General Counsel
Counsel of Record
Counsel for Petitioners

